KYLE D. HAWKINS
Solicitor General

(512) 936-1700
Kyle.Hawkins@oag.texas.gov

September 15, 2020
Via E-File
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

California v. Texas, No. 19-840; Texas v. California, No. 19-1019

Dear Mr. Harris,
On August 25, petitioners submitted letters to this Court to express their opinions
about the topics addressed in Texas’s reply brief. As these letters are not motions
and do not request relief, it is unclear whether a response is necessary.
Regardless, petitioners’ contentions are meritless. In its April 2 Order, the Court
directed Texas “to file a reply brief limited to Question 2 presented by the petition
for certiorari in No. 19-1019.” That question is: “Whether the district court properly
declared the ACA invalid in its entirety and unenforceable anywhere.”
The first section of Texas’s reply brief is titled: “The District Court Properly
Declared the ACA’s Major and Minor Provisions Invalid.” It addresses whether the
district court properly declared the ACA invalid in its entirety. Reply Br. II, 3-11.
The second is titled: “The District Court Properly Declared the ACA
Unenforceable Anywhere.” It addresses whether the district court properly declared
the ACA unenforceable anywhere. Id. at II, 12-19.
Nothing about Texas’s reply is improper, and petitioners’ opinions should be
disregarded.
P os t Of fic e B ox 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. t exa satt or n eygen era l. gov

Page 2
Regards,
/s/ Kyle D. Hawkins
Kyle D. Hawkins
Solicitor General
Counsel of Record
cc: Samuel P. Siegel (Counsel for State Petitioners)
Douglas N. Letter (Counsel for House of Representatives)
Jeffrey B. Wall (Counsel for Federal Respondents)
Robert Henneke (Counsel for Individual Respondents)

P os t Of fic e B ox 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. t exa satt or n eygen era l. gov

